<html>
<title> - [H.A.S.C. No. 111-33]FUTURE ROLES AND MISSIONS OF THE MISSILE DEFENSE AGENCY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-33]

        FUTURE ROLES AND MISSIONS OF THE MISSILE DEFENSE AGENCY

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 26, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
51-662                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          HOWARD P. ``BUCK'' McKEON, 
ROBERT ANDREWS, New Jersey               California
JAMES R. LANGEVIN, Rhode Island      MAC THORNBERRY, Texas
RICK LARSEN, Washington              TRENT FRANKS, Arizona
MARTIN HEINRICH, New Mexico          DOUG LAMBORN, Colorado
                 Frank Rose, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, March 26, 2009, Future Roles and Missions of the 
  Missile Defense Agency.........................................     1

Appendix:

Thursday, March 26, 2009.........................................    31
                              ----------                              

                        THURSDAY, MARCH 26, 2009
        FUTURE ROLES AND MISSIONS OF THE MISSILE DEFENSE AGENCY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     2

                               WITNESSES

Ahern, David G., Director, Portfolio Systems Acquisition, Office 
  of the Under Secretary of Defense for Acquisition, Technology 
  and Logistics, U.S. Department of Defense......................     8
Pendleton, John H., Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office..............     6
Welch, Gen. Larry D., USAF (Ret.), President and CEO, Institute 
  for Defense Analyses...........................................     4

                                APPENDIX

Prepared Statements:

    Ahern, David G...............................................    69
    Pendleton, John H............................................    46
    Welch, Gen. Larry D..........................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
        FUTURE ROLES AND MISSIONS OF THE MISSILE DEFENSE AGENCY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Thursday, March 26, 2009.
    The subcommittee met, pursuant to call, at 9:33 a.m., in 
room 2212, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. The committee will come to order. The 
Strategic Forces Subcommittee meets this morning to receive 
testimony on the future roles and missions of the Missile 
Defense Agency (MDA). Let me start off by saying this: I 
strongly support deployment of operationally effective, 
suitable, and survivable missile defenses to defend the United 
States, its deployed forces, and its friends and allies against 
the full range of ballistic missile defense (BMD) threats we 
face.
    In short, that means I support deploying missile defenses 
that work. That is why it is imperative that we have adequate 
processes in place at the Department of Defense (DOD) to ensure 
that we provide our warfighters the right missile defense 
capabilities in adequate numbers to meet the current threats we 
face.
    Over the past several years, we have seen a rush to deploy 
an initial national missile defense system that addresses a 
future threat, but crowds out more urgent priorities that 
address the current threats. This occurred for a variety of 
reasons but, fundamentally, the Department of Defense failed to 
provide adequate oversight and guidance to the Missile Defense 
Agency. Without such direction, we had a program that did not 
design, test, and deploy against current threats.
    As a result, it took Congress--acting on a bipartisan 
basis, I would add--to direct the Missile Defense Agency to 
focus more attention on developing and deploying current 
missile defense capabilities to meet the warfighters' 
operational requirements, and to meet the current threats we 
face. For example, it took congressional action to get the 
Department to implement the recommendations outlined in the 
Joint Capabilities Mix Study II (JCM II), which called for 
doubling the number of Terminal High Altitude Area Defense 
(THAAD) and Standard Missile 3 (SM-3) interceptors.
    After years of this dynamic, where Congress had to be the 
advocate for the warfighters' current priorities, it became 
clear to me that the Department of Defense's internal processes 
for oversight and review of the missile defense program were 
broken. This largely explains why Congress directed the 
independent study, the study on the future roles and missions 
of the Missile Defense Agency in the National Defense 
Authorization Act (NDAA) for Fiscal Year 2008. The results of 
this study will form the basis of our discussion this morning.
    At the heart of the recommendations outlined in the report 
is a need to more fully integrate the activities of the Missile 
Defense Agency with the overall Department of Defense. I agree 
with that assessment. This is a key issue that Congress and the 
Department of Defense need to address together.
    If we are going to have operationally effective, suitable, 
and survivable missile defense systems, we must not view 
missile defense as something isolated from the rest of the 
Department of Defense. Instead, missile defense must be fully 
integrated into our overall defense planning and doctrine.
    The Department has recently taken a number of steps to 
better integrate and coordinate Missile Defense Agency 
activities with other key DOD stakeholders, the most important 
of these steps being the establishment of the Missile Defense 
Executive Board (MDEB). While there is still ongoing work that 
needs to be done in this area, the Department is generally 
moving in the right direction.
    As the Obama Administration reviews the missile defense 
program, I hope that one of its key priorities will be to 
ensure that the Department of Defense establishes and maintains 
adequate processes to provide our warfighters with real 
capabilities we need to meet the current threats we face. Let 
me be clear: This is not about slowing things down; this is 
about getting it right.
    The threat of ballistic missiles cannot be ignored. Iran 
has the largest force of short- and medium-range missiles in 
the Middle East, and North Korea is poised to launch a long-
range Taepodong missile, possibly this week. Addressing the 
ballistic missile threat, wherever it comes from, will require 
a combination of systems that work, and a smarter use of 
diplomacy that engage our allies and some of our adversaries.
    Let me now turn the floor over to my distinguished ranking 
member, my friend from Ohio, Mr. Turner, for his opening 
comments. Thank you.
    Mr. Turner.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Madam Chairman.
    I would also like to extend a warm welcome to our 
witnesses, all of whom have served our Nation with distinction. 
In particular, I want to recognize General Welch, who will 
complete his service as President and Chief Executive Officer 
(CEO) of the Institute for Defense Analyses (IDA) on April 15th 
after over 15 years in the position.
    The focus of today's hearing is to examine potential 
improvements to the processes or organization and management 
structures that could enable further success in missile 
defense. I respectfully disagree with Madam Chairman that DOD 
processes were broken, but I do believe that systems can always 
be improved, and that is why it is excellent that we are 
proceeding with this hearing.
    We have some thorough reports and assessments from the 
Institute for Defense Analyses and the Government 
Accountability Office (GAO) to use as a basis for our 
discussion today. And I want to commend our witnesses and the 
organizations they represent for their outstanding work.
    In 2002, President Bush issued a mandate: Deploy a set of 
initial missile defense capabilities beginning in 2004. The 
mandate was met and, seven years later, we have a fielded 
missile defense capability that our military commanders rely 
on. The rapid development in deployment of this capability was 
unique, and it was enabled by the flexibility of special 
authorities granted to MDA.
    However, as noted in the testimony of our witnesses, the 
success came at the expense of full warfighter involvement, DOD 
oversight, and transparency. The challenge ahead is balancing 
MDA's needed flexibility, while providing more structure and 
enhancing the involvement of DOD stakeholders.
    I would appreciate our witnesses' thoughts on how to strike 
this balance, as well as any areas of concern they may have.
    Furthermore, the increasing demands for more inventory, 
operations, and sustainment of existing assets detract from 
MDA's primary focus on research and development (R&D). Efforts 
are underway in the Department to transfer the procurement, 
operations and sustainment of more mature missile defense 
assets to the military services. However, because these systems 
are so integrated and complex, transfer must be done smartly.
    A key issue in this process and its timing is transferring 
the responsibility for operations and management and follow-on 
procurement. I welcome our witnesses' views on how we can 
maximize success throughout this transfer process, and any 
potential pitfalls that might negatively impact this success.
    The Department has done a commendable job, to date, 
recognizing and addressing these challenges. In 2007, the 
Missile Defense Executive Board was established to recommend 
and oversee implementation of missile defense policies, 
programs, and budgets. A few months ago, it developed a 
disciplined process and set of business rules, the Ballistic 
Missile Defense System (BMDS) Lifecycle Management Process, to 
delineate roles and missions, and guide the transfer of 
missile-defense assets to the services. I look forward to 
hearing more about these efforts.
    Lastly, as we see in intelligence, our adversaries' 
capabilities are continuously evolving. If we do not invest in 
long-term R&D or evolve our capabilities as well, they risk 
becoming obsolete. The IDA report recommends that, within the 
spectrum of our development, test, and evaluation (DT&E) 
activities, science and technology (S&T) should receive renewed 
emphasis and increased funding. I am interested in our 
witnesses' thoughts on what aspects of S&T should receive more 
emphasis.
    We want and demand success in our missile defense system. 
Our national security and the security of our allies depends on 
it. We must, therefore, ensure the Department has the right 
authorities, tools, resources, and flexibility to be 
successful. Today's hearing is a step in that direction.
    Thank you, again, for being here today.
    Madam Chairman, I appreciate this hearing.
    Ms. Tauscher. Thank you, Mr. Turner.
    Let me now turn to our panel of witnesses. Our witnesses 
today include General Larry Welch, President and CEO of the 
Institute for Defense Analyses; Mr. John Pendleton, Director of 
Defense Capabilities and Management team, U.S. Government 
Accountability Office; and Mr. David Ahern, Director of 
Portfolio Systems Acquisition, Office of the Under Secretary of 
Defense (OUSD) for Acquisition, Technology, and Logistics 
(AT&L). Each of our witnesses have submitted a comprehensive 
statement, and their formal statements will be entered into the 
record. And I ask each of you to briefly summarize your 
remarks. Let me begin by recognizing General Welch.
    General Welch, once again, congratulations on your very 
long tenure at the Institute for Defense Analyses, and your 
great service to this country. As I said to you when I said 
hello earlier today, we have counted on you for so long to do 
so much, and we thank you very much, from the subcommittee, for 
all the work that you have done to provide us with good 
analysis.
    And the floor is yours.

 STATEMENT OF GEN. LARRY D. WELCH, USAF (RET.), PRESIDENT AND 
              CEO, INSTITUTE FOR DEFENSE ANALYSES

    General Welch. Thank you very much, Madam Chairperson. I 
have submitted my opening statement for the record. I will just 
make a few comments about it.
    I do want to point out that my comments in the statement 
reflect the consensus of the study group, and where I depart 
from those or go beyond those, I will make it clear that they 
are my personal opinion. Otherwise, I am really reporting on 
the consensus of a group of people who have lots and lots of 
experience, both in missile defense and in acquisition in 
general.
    You have mentioned the January 2002 directive that required 
that the Missile Defense Agency begin to deploy a system in 
2004. While it was not explicitly stated in the directive, the 
assumption was that this was to be a mid-course system capable 
of dealing with a limited attack from Korea--from North Korea. 
So, with that in mind, what was actually required to do that, 
and how well they did that is an issue; however, we were not 
asked to assess the performance of the Missile Defense Agency, 
and we did not do that.
    We did find a very broad consensus within the Department to 
include the Department of Defense and the contractor community 
and our study group, that the special authorities and the 
centralized approach were essential to the rapid deployment 
that was required by the January 2002 directive. And while it 
did succeed in meeting that mandate, which was very difficult--
and a lot of people, including myself, doubted that they would 
be able to make that mandate--it was much less successful in 
fostering the planning and preparation and the cooperation and 
the understanding from the service that would eventually 
inherit those capabilities. And that is one of the major issues 
in the study and one of the major issues, I understand, of this 
hearing.
    It has been mentioned several times that the development 
and initial fielding was not subject to the 5,000 Series. It 
was our view that this set of programs is quite unique. And 
that is--the task was to integrate into a cohesive, coherent 
system parts and elements that come from systems from all three 
of the military departments, systems that were at varying 
degrees of maturity, and the task of integrating those into an 
operational system that had to respond in near-time was quite 
different from any other weapon system procurement that we have 
seen.
    And so we felt that the special authorities, and retaining 
some of those special authorities, were essential because of 
the nature of the Ballistic Missile Defense System. And I 
stress the word ``system,'' because it is made up of a series, 
as you know, of sensors, and interceptors, and Command and 
Control (C2). We have seen a response to the need for more 
oversight for the Department of Defense, and we are seeing, at 
least, plans to begin to transfer operational responsibilities 
to the military departments, and some plans, although not as 
clear, on transferring follow-on procurement.
    I would make a comment about that, Madam Chairperson. You 
mentioned the difficulty in persuading the Missile Defense 
Agency to buy more THAAD. I think that is a conflict that you 
will see until we resolve the issue of who is responsible for 
research, development, test, and evaluation (RDT&E) and who is 
responsible for procurement.
    Ms. Tauscher. That is right.
    General Welch. Because otherwise the Missile Defense Agency 
will always see the demand for more procurement of what they 
regard as mature systems as competing with the need for RDT&E.
    Ms. Tauscher. That is right.
    General Welch. So some clarity as to who is responsible for 
what, I think, would go a long ways toward satisfying that 
particular requirement.
    We were also asked to comment on whether or not there were 
things currently in the Missile Defense Agency portfolio that, 
in whole or part, should be removed, or things that should be 
added. Our conclusion was that there was nothing that should be 
added, and we very specifically addressed the issue of cruise 
missile defense. And while cruise missile defense is a very 
important subject, adding that to the ballistic missile defense 
portfolio, we felt, would serve the needs of neither cruise 
missile defense nor ballistic missile defense. They are very 
different, and it is very complex.
    I would end my opening comments by reiterating what we 
regard as the three fundamental reasons why there need to be 
some continuing special authorities within the Missile Defense 
Agency. And that was, the first issue is the matter of 
integrating a complex set of capabilities into a cohesive 
system that has to respond effectively against missiles of all 
ranges in a very short time period. And that requires a degree 
of Command and Control integration that we don't see elsewhere.
    There will be the long-term issue, as these systems are 
inevitably upgraded, and most of these systems fulfill multiple 
purposes--that is, they serve a missile defense purpose, but 
they also serve a joint purpose within the larger, joint 
operation. So as these upgrades take place and these changes 
take place, the need to maintain configuration control over the 
evolving system to ensure it remains cohesive and coherent is, 
again, a special requirement.
    And finally, I have mentioned and will mention once again, 
the Command and Control and Battle Management System that 
brings together a complex set of sensors or complex set of 
interceptors on a global basis that must respond virtually 
instantly is a very unusual and demanding task, and that is 
another reason why there will need to be some special 
authorities.
    Make one last point, and that is, we recommend strongly 
that the Missile Defense Agency's focus be RDT&E as their 
primary focus. However, we added a caveat in the definition of 
RDT&E in this case, in that in order to ensure that the 
deployed system has, in fact, been integrated into the 
Ballistic Missile Defense System, we believe RDT&E has to 
include the deployment of an initial capability, because until 
an initial capability is actually deployed and operating within 
the system, you have no assurance that even the first phase of 
RDT&E has been satisfactorily complete.
    Thank you very much.
    [The prepared statement of General Welch can be found in 
the Appendix on page 35.]
    Ms. Tauscher. Thank you very much.
    Mr. Pendleton, thank you again for your comprehensive 
statement, and I thank you for your staff's hard work. We will 
submit your statement for the record. We ask you to summarize, 
and the floor is yours.

STATEMENT OF JOHN H. PENDLETON, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Pendleton. Yes, ma'am.
    Madam Chair, Mr. Turner, members of the subcommittee, I am 
pleased to be here today to discuss GAO's work on the Missile 
Defense Program.
    DOD may well be at a crossroads in missile defense, but no 
matter what path is taken, our work indicates that DOD will 
need to overcome serious management challenges. A better 
balance is needed between flexibility and oversight. Before 
describing the challenges, however, I want to acknowledge DOD's 
progress.
    Since MDA was created in 2002, the United States has filled 
in several interconnected elements, ranging from radars in 
California and Japan to interceptors in Alaska, among others. 
Going forward, DOD will need to focus as much on management 
fundamentals as it does on harnessing new technologies.
    Our work over the past few years, much of it at this 
subcommittee's request, has revealed problems in setting 
requirements, testing and buying systems, and in planning for 
long-term operations and support (O&S). I will briefly discuss 
each of these challenges.
    The first is associated with the process for determining 
what missile defense capabilities are needed. A key stakeholder 
should be the geographic combatant commands, who specialize in 
various parts of the world and understand the threats in the 
region. However, we reported in 2008 that DOD does not yet have 
an effective process to ensure that the priorities of those 
combatant commands are considered when making development and 
investment decisions.
    A bit of history is important, though, to put this into 
context. During the first three years of MDA, from 2002 to 
2005, no formal process existed to consider combatant command 
views. So the creation of such a process, called the Warfighter 
Involvement Process (WIP), in 2005 was certainly a step in the 
right direction.
    The second major challenge is the continuing difficulty in 
measuring progress on cost, schedule, and testing. In the 
absence of baselines, it has not been possible to measure the 
performance of most MDA programs. For example, MDA has not 
established baselines for cost, and such baselines are critical 
to assess progress. Furthermore, MDA's difficulties in meeting 
testing baselines have sometimes caused production and fielding 
decisions to get ahead of testing and modeling, which leaves 
lingering concerns about the efficacy of some parts of the 
system.
    A third challenge is associated with the lack of planning 
for the long-term operations and support of the systems once 
they are developed. This is critical because two-thirds or 
more, at least historically, of the system's costs are 
associated with operating and supporting it over a lifecycle. 
As systems come online, the question of who will operate and 
support them becomes more urgent.
    Typically, this function has been performed by the military 
services, but many questions about how this transition and 
transfer will occur remain unanswered. This is attributable 
primarily to uncertainty about cost. DOD has not required that 
full cost estimates for operations and support be developed, 
and since these costs are likely to be significant, the 
military services have been reluctant to take on an unknown 
liability, especially in today's budget environment.
    A common thread through all of these challenges is the need 
for better oversight in the development of ballistic missile 
defenses. The creation of a Missile Defense Executive Board, or 
MDEB, in 2007 has served to improve oversight some by reviewing 
and making recommendations on MDA's acquisition strategy, 
plans, and funding, as well as bringing top-level leaders 
together from across the Department. The board's adoption of a 
Lifecycle Management Process has served to clarify roles, but 
that process is still in its early stages and lacks important 
details, like how it will implement the new defense-wide 
funding accounts for ballistic missile defense, including 
allocating funds to the various players.
    In sum, Madam Chair, whether or not DOD continues to 
acquire, operate, and maintain missile defenses outside 
traditional DOD processes, the challenges we have found in our 
work will need to be addressed. Sustained DOD leadership will 
be needed to coordinate the divergent needs of the combatant 
commands, ensure that billions of dollars are spent wisely, and 
that MDA and the services work together in their planning long-
term operations and support of these expensive and 
extraordinarily complex systems.
    That concludes my statement. I would be happy to answer any 
questions. Thank you.
    [The prepared statement of Mr. Pendleton can be found in 
the Appendix on page 46.]
    Ms. Tauscher. Thank you, Mr. Pendleton.
    Mr. Ahern, thank you again for your comprehensive 
statement, and your statement has been submitted for the 
record. And the floor is yours.

   STATEMENT OF DAVID G. AHERN, DIRECTOR, PORTFOLIO SYSTEMS 
   ACQUISITION, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR 
   ACQUISITION, TECHNOLOGY AND LOGISTICS, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Ahern. Good morning, Madam Chairperson Tauscher, 
Ranking Member Turner, distinguished members of the 
subcommittee. Thank you for the opportunity to appear before 
you today. As noted, I serve as the Director for Portfolio 
Systems Acquisition in the Office of Under Secretary of Defense 
for Acquisition, Technology and Logistics. Among my duties, of 
course, is responsibility for developing insight and supporting 
oversight of the Missile Defense Agency.
    I would like to take a moment to address the importance of 
the Ballistic Missile Defense System. Ballistic missile threat 
is evolving. Not only have the number of countries holding 
short- and medium-range ballistic missiles increased over the 
last 30-plus years, but also the range, sophistication, and 
accuracy of those missiles has improved. The Missile Defense 
Agency has achieved important successes in the development and 
employment of missile defense systems.
    Currently, our Nation's missile defense capability includes 
Ground-based Mid-course (GMD) interceptors, Standard Missile 3 
sea-based interceptors, Aegis Ballistic Missile Defense 
engagement aboard destroyers and cruisers, various radars, 
including a Sea-Based X-band (SBX) Radar, and a forward-based 
transportable radar. As both the threat and BMDS capability 
have evolved, so too has the Department's involvement in 
overseeing and directing MDA activity.
    The Honorable John Young, Under Secretary of Defense for 
Acquisition, Technology and Logistics, testified before this 
committee a year ago, stating his intention to use the Missile 
Defense Executive Board to provide all stakeholders visibility 
into the MDA programs, and to give them voice in the agency 
plans. He said he would ``ensure that there is appropriate, 
independent DOD oversight of missile defense programs.''
    He met his goals by conducting eight Missile Defense 
Executive Board meetings over the last 12 months, making 
decisions on MDA programs and the budget, and on missile 
defense policy, requirements, and deployment plans. I mention 
the number of meetings just to give you a sense that we are 
actively engaged in overseeing MDA's activities, meeting more 
often, frankly, than the Defense Acquisition Boards (DABs) do 
when reviewing other major defense acquisition programs.
    As part of the increased level of MDA oversight, Mr. Young 
led the development of the Ballistic Missile Defense System 
Lifecycle Management Process, which the Deputy Secretary 
endorsed. The new process mandates the participation of the 
MDA, the Office of the Secretary of Defense, the Strategic 
Command commander, other combatant commanders, the Joint Staff, 
the military departments in an annual, collaborative process to 
identify capability and support requirements, balance resources 
and technical capabilities, and prepare a program plan and 
budget. This process was exercised during the development of 
fiscal year 2010 budget and will have full effect as we develop 
the Department's fiscal year 2011 budget.
    I would like to mention examples of recent Missile Defense 
Executive Board reviews: A comprehensive program assessment of 
THAAD--the THAAD program--and a Joint Staff study on 
requirements for upper-tier missile defense interceptors. The 
purpose of the THAAD review is to determine program progress, 
maturity of planning, and preparation for acquisition and for 
operation and support by the Army as a designated lead in the 
military department.
    The board's Joint Staff study--review of the Joint Staff 
study--involved capabilities balanced against available assets, 
and indicated a need for additional upper-tier interceptors. 
That is under consideration, and the program planning and 
budget processes are ongoing.
    I would also like to address the increasing importance of 
combatant commander involvement in determining the Nation's 
missile defense posture. Strategic Command's Warfighter 
Involvement Process ensures that desired operational 
capabilities are properly considered by MDA, the material 
developer.
    A significant output of this proposal is a Prioritized 
Capability List (PCL) that documents operator capability 
requests. MDA provides a formal response which, in turn, 
facilitates our assessment of MDA program plans against desired 
capabilities. This is another example of how the Department is 
ensuring warfighter involvement in the development of missile 
defense programs.
    I am grateful to the members of this committee for your 
support of the Defense Department's missile defense program and 
look forward to your questions.
    [The prepared statement of Mr. Ahern can be found in the 
Appendix on page 69.]
    Ms. Tauscher. Thank you, Mr. Ahern.
    I will begin with a question to General Welch. One of the 
key issues that the Department of Defense and the Congress have 
been grappling with over the past several years is how to get 
the services to take full ownership of the missile defense 
mission. And we have had--Mr. Pendleton and others have talked 
about, and you certainly have, sir, about the need to bring the 
combatant commanders into a planning function, and I read 
``buy-in'' also there.
    Besides the issue of funding, which is nontrivial--I mean, 
if you don't have the money you are not going to find a way to 
cut something that you know you have to have, or something that 
you might have to have, and that is part of the problem that we 
have. Besides the issue of funding, what have been other 
impediments that have stood in the way of the services from 
fully embracing the missile defense mission, and what is your 
current assessment of the services' attitude toward the missile 
defense mission? And what can be done, assuming you have a 
sense that there is a negative, what can be done to improve 
these attitudes?
    General Welch. I think that answer is different for 
individual pieces of the Ballistic Missile Defense System. In 
the case of the Patriot, for example, the Army always regarded 
the Patriot as part of their integrated maneuver battalion and 
so, therefore, they had an intense interest in the Patriot from 
the beginning, and it was easy to transfer it over. I think you 
will find a similar situation on the Aegis SM-3, simply because 
they use their ship as part of the Navy's normal operations. 
SM-3 is operated by sailors on Navy ships, and so there is 
simply the matter of agreeing on what constitutes something as 
mundane as a Milestone C, because there are different test 
requirements.
    The THAAD has a different history. As you will recall, the 
THAAD was an Army program. It is funded by the Ballistic 
Missile Defense Organization (BMDO), but it was developed by 
the Army as part of the Army's set of capabilities included 
under the joint operation. That program had some very difficult 
times, and it was transferred to the Missile Defense Agency. 
Again, while there are questions about what is the funding 
approach, and how do you actually transfer those 
responsibilities, we really don't see any reason why the Army 
can't assume full responsibility for the THAAD. It was an Army 
system; it is still painted green.
    But probably the most complex issue has to do with the 
Ground-based Interceptor (GBI), because the Ground-based 
Interceptor was never part of any of the service programs, and 
it is the mid-course system. So to try to make a blanket 
statement about what the difficulties are, I don't think you 
can do that. You have to address each of these individually. 
And that is the reason why, in our report, we suggested one 
approach to transferring O&S responsibility to include funding 
and a more complicated approach to transferring the 
responsibility for follow-on procurement.
    All of this, of course, is complicated by how we come to 
agreement on who has the authorities for upgrades and 
configuration control, and maintaining the coherence of the 
system after it is transferred. We recommend the Joint Program 
Office (JPO). Currently, General O'Reilly is standing up Hybrid 
Program Office.
    There are some differences, but the Hybrid Program Office 
does get the military department involved from the outset; it 
gives them a set of responsibilities that are enduring; it 
gives them a set of accountabilities that are enduring. I think 
that is a huge step toward bringing MDA and the service 
interests together.
    Ms. Tauscher. Thank you.
    I have one follow-on question about the report that talks 
about the need for MDA to maintain its capabilities-based 
acquisition approach with modifications, and you had just 
referred to it. My concern with a capabilities-based approach 
is that it does not fully take into account critical factors 
such as suitability and survivability, and may not have been 
fully synchronized with the overall DOD acquisition process.
    Can you talk a little bit about how you can ensure that the 
capabilities-based acquisition fully takes into account such 
important factors such as suitability and survivability? How do 
you do these synchronizations of capabilities approach with the 
normal acquisition system that the rest of the Department of 
Defense operates under?
    And then, if I could ask both Mr. Pendleton and Mr. Ahern 
to comment on those questions after you finish, General Welch.
    General Welch. The suitability and the issues surrounding 
with logistics and the other mundane issues that create such a 
major part of the things that military departments have to deal 
with is explicitly addressed in the Hybrid Program Office 
approach. And, in fact, I would say that is probably the 
central feature of the hybrid approach, so that as far as our 
recommendation for Joint Program Offices was that the 
responsibilities would transfer from MDA to the service--at a 
point in time.
    The hybrid approach retains the requirements from the very 
beginning. That is, the service element in the Hybrid Program 
Office has responsibility for the things you described as a 
part of the program office from the outset.
    The issue, of course, is how do we establish those things 
and get them up and running and make them effective for systems 
that are already quite mature. And that is part of the handover 
issue; that is part of how you actually transfer responsibility 
for O&S to the military departments.
    Again, though, when you look at it system-by-system, I 
think that is really only a major understanding issue with GBI. 
The other systems, there will be issues about, how do I know 
what the O&S costs are? And there has been a recommendation 
that there be a transition period whereby O&S is funded from a 
defense-wide account; I think that will work as a transition.
    Ms. Tauscher. How long do you think that would take?
    General Welch. Well, we heard expert opinions that varied 
from a year to two years. I have no basis for arguing with a 
year to two years. I would state, though, that the idea that 
over the long term you can fund O&S from a defense-wide account 
would run into huge problems.
    For example, I don't know how one decides how much of the 
Aegis cruiser O&S is due to SM-3, and how much is due to all 
the other things that you do with that cruiser or that 
destroyer.
    So in the first place, I think it is just impractical, but 
the transition period is probably necessary, simply for the 
military department to get their arms around, what is the 
additive cost? How does this impact our overall O&S cost 
program?
    Ms. Tauscher. Thank you.
    Mr. Pendleton.
    Mr. Pendleton. That was a pretty comprehensive answer, but 
I would echo and agree with many of the things the General 
said. I think the hybrid offices will be important. Obviously, 
it provides a forum to bring together folks and talk about the 
details, because the devil is going to be in the details on 
this.
    Another thing that is happening is MDA and the services are 
hammering out Memoranda of Agreement (MOA), basically sort of 
laying out who is going to do what, and that kind of thing. But 
the annexes that go along with that that would describe a 
number of the things you are talking about are yet to be 
determined. So again, I think that how well that is carried out 
is going to be real key over time.
    And I think in terms of breaking ties, a lot is going to be 
riding on the MDEB. If someone needs a reclama, if someone 
needs to cry foul, the MDEB is going to be probably where they 
go. And the MDEB can go to the Deputy Secretary's desk. So I 
think that system can work, but there is a lot yet to be 
determined.
    Ms. Tauscher. Mr. Ahern.
    Mr. Ahern. Yes, ma'am. You have hit on two perfect issues, 
and we have spent an awful lot thinking about it. And the first 
issue is the service involvement. And that starts with the Lead 
Service designation, and it has been done for 100 percent of 
the elements that we have right there. All the services are 
represented in the MDEB. Then transferring over to the 
lifecycle management plan paradigm, they are all involved both 
in the establishment of the requirements in the first portion 
of it, working with Strategic Command (STRATCOM), then they get 
involved in the budgeting and planning subcommittee, and then, 
of course, in the MDEB as we develop the annual budget.
    And so they are 100 percent involved in that whole process 
with their own specific element at the beginning, and then 
through the annual process to put together the budget that 
addresses the standard Planning, Programming, Budgeting System 
(PPBS) kind of thinking--what should we do within the 
requirements and the technology that we have that is 
affordable? And so we work through that process, as I said. We 
exercised it in 2010, we are going to live in 2011, informed by 
the Warfighter Improvement Committee.
    But when we get to the elements themselves, that is the 
real challenges, as both the General and Mr. Pendleton have 
mentioned. We have the Lead Service designated, but then the 
devil is in the details, as Mr. Pendleton said.
    We do have the overarching MOAs, and there are MOAs 
developed for each one of the elements. For instance, the SBX, 
which we expect to have that transfer in the next couple of 
years, that annex is either under development or developed. 
They will recognize how the service plans to support that 
entity within its boundaries--the way it does its business, the 
way it operates.
    And that is going to be a--as was mentioned, again, by the 
General and Mr. Pendleton, there will be a learning period 
there of informing the MDA and the service beginning to work 
with something that they didn't develop and that they have not 
had practice with, or the experience with, before. So that is 
why there is that transition period of a couple of years, or it 
could be possibly as long as five years, depending upon the 
maturity of the system as we go forward. But by using the 
defense-wide fund, we have taken that issue of money 
competition within the services off the table for that period 
of time, where they are developing that transition plan and 
beginning to bring it into their service.
    And I will finish in one note, I mentioned that we did a 
THAAD review recently. One of the things that we worked very 
hard on in that particular review was a joint review between 
the MDA and the Army of what are the criteria that the Army has 
established to--what processes did the Army expect this system 
to go through before they will accept it? And the MDEB will 
absolutely monitor that as we go forward.
    Ms. Tauscher. Thank you.
    Mr. Ahern. I realize that that is a long answer, but this 
is a passionate part of the job that I do. And I think we have 
set up a process; with discipline, we will make it work.
    Ms. Tauscher. I am going to turn to Mr. Turner, but Mr. 
Ahern, I want to come back to you on the second round and ask, 
how do you accommodate the combatant commands (COCOMs).
    Mr. Ahern. Yes, ma'am.
    Ms. Tauscher. We understand now we have got these MOAs with 
the services, but now there is another intersection with the 
COCOMs, and I am going to come back in the next round and ask 
you about that.
    Mr. Turner.
    Mr. Turner. Thank you, Madam Chairman.
    I have been on this committee now for slightly over six 
years, and in this committee we have had discussions over 
evolving threats that are now major topics in the news. Iran 
has launched a satellite; North Korea now has a missile that 
has grabbed the topic of the news, where people's major 
questions now are, you know, what are they doing? What is the 
threat? But then, more importantly, the next question, which 
is, what do we have to defend ourselves from this evolving 
threat?
    General Welch and Mr. Ahern, I had an opportunity to speak 
to you before this hearing, and one of the things that I 
thought was really important about the discussions that we had 
was the way that you so clearly described the uniqueness of 
this whole assignment that MDA has; that, in this process, we 
are inventing something that didn't exist, either in pieces of 
a system or in integrating systems, in order to ensure that as 
Iran and North Korea grab the news, that we actually have some 
answer.
    In looking at the directive from the Administration in 
2002, you know, Iran didn't have a satellite, North Korea was 
not grabbing our thoughts as it is at this very moment, as we 
are assessing what it is that North Korea is doing. Could you 
speak a moment to that uniqueness of the inventive process?
    General Welch. I guess I would start with, without giving 
you a threat briefing, which would be inappropriate and outside 
the classification of the hearing, the one thing I think we can 
all agree on, and that is, you can develop offensive ballistic 
missile capabilities much faster than you can develop defenses 
against them. You may remember when the Rumsfeld Commission did 
the study on the ballistic missile threat to the United States, 
in which I participated. We said any nation who decides they 
want to do it can field a ballistic missile capability within 
five years from the time they decide it, and you will not know 
when they decided.
    There is a lot of skepticism about that, but 90 days after 
we published the report, then North Korea fired a ballistic 
missile that nobody knew they had. So it tended to add to the 
credibility. We did not have a relationship with North Korea, 
by the way.
    But my point is that we know for each of these systems 
where our vulnerabilities are to development within the kinds 
of countries that we are concerned about, that on the mid-
course system we are well aware of what counter measures can do 
to the effectiveness of that system. And we certainly know how 
to improve our capability to deal with that, but it is not 
currently funded. That is, we currently do not have the 
resources allocated to that particular issue.
    On other parts of the system, like the THAAD or the 
Patriot, I think we are all quite confident that those systems 
are, in fact, effective, and there is no reason that they won't 
be effective for sometime, but they still will require 
continued upgrades.
    The complex issue is, every time you do something to one of 
those systems, every time you add any upgrade to one of those 
systems, you have to understand what it does to the whole 
system, because none of those operate as an individual element 
alone from the others within the Ballistic Missile Defense 
System. And that is part of the reason why we think it is 
absolutely essential that configuration control and, in fact, 
control of any upgrade that affects the Ballistic Missile 
Defense System, has to remain in a centralized fort.
    Did I address your question?
    Mr. Turner. Yes, you certainly have. Yes. Thank you.
    Mr. Ahern.
    Mr. Ahern. Yes, sir.
    It is a portfolio; it is a system of systems. I pulled out 
my picture, and I look, and I can't do any better than General 
Welch's, I would only amplify what he said, because we need the 
tip-off at the beginning from whatever sensors are available; 
we need to track it across its flight; we need to, of course, 
shoot it down--engage it and shoot it down. We have no time in 
which to do that, and it is way away from the United States, 
basically, and we want to keep it way away from the United 
States.
    So it does require that integrated end-to-end system of a 
number of elements--two, three, four, five elements acting 
simultaneously and perfectly, in order to affect that defense 
that we need, all orchestrated by that Command and Control 
system that the MDA has developed, with the communication 
system that they have also developed. So that integrated 
network that will evolve over time as the technology evolves 
and as the threat evolves is unique across the military 
department, as I see it.
    Developing that capability from nothing, and continuing to 
evolve it as we go forward requires that continued, I think, 
special authorities--not a lack of discipline; not a focus on 
what we are doing and cost, schedule, and performance--but a 
recognition that the capabilities across the portfolio have to 
be monitored very carefully so that we maintain that integrated 
capability as we go forward.
    Mr. Turner. Well, General Welch, you started with, 
``Missiles can be developed faster than defenses,'' and then 
went on to the second area that my question was going to go 
into. In recognizing the uniqueness of the processes of 
invention and the timeline being longer for creating defenses, 
as opposed to systems that can be created more quickly by 
adversaries, and looking at if what we have now is sufficient 
as deployed for our current threats, the evolution, as you were 
discussing, of those threats means that we are going to still 
have to have a system that permits that uniqueness of the 
invention for defenses to thrive.
    You have talked about that future and how we tried to 
address it--what are some of your concerns? What could we do, 
as Congress, to screw it up that would make it more difficult 
for that uniqueness to thrive? Because we want to make sure 
that we don't do that.
    General Welch. I will answer your question explicitly, but 
I think that when we stop talking about ``theater'' and 
``national'' and begin to talk about them as if they were the 
same thing, there is value to that but there is also a problem 
with that, because they are not the same thing. That is, the 
state of our needs and capabilities for many of the theater 
defense systems are quite different than the mid-course 
intercept system that is designed to deal with Intercontinental 
Ballistic Missiles (ICBMs) that are intercontinental, or even 
long-range missiles.
    But having said that, I guess the thing that I would think 
would do the greatest damage to the ability to respond in an 
agile fashion to technological opportunities and to respond to 
technological disappointments, which always occur, the thing I 
would worry about the most if we pressed this system into the 
standard mold of the 5000 Series and the Joint Capabilities 
Integration and Development System (JCIDS)--it is not a 
criticism of the 5000 Series and JCIDS, although I might do 
that at another hearing. It is not a criticism in this hearing. 
It is, instead, a recognition that that system is designed to 
carefully define what you want an individual weapon system to 
be able to do, it is to get complete agreement among the joint 
users and the services as to what those characteristics should 
be, what they should cost, when they should be delivered; it 
does not lend itself to adapting technological opportunity or 
dealing with technological disappointment. It is just not 
designed for that.
    And if you tried to do what has been done so far in either 
of the theater systems--that is, Patriot, or THAAD, or the 
intermediate, the Aegis SM-3 or the GBI--if you tried to 
develop those systems within the constraints that I just 
described, you wouldn't be nearly as far along as you are in 
any of those systems. So I think that would just be highly 
damaging--press this into that mold it works fine, but what is 
it designed for? It is not designed for this system of systems 
integrated kind of demand.
    Mr. Turner. Mr. Ahern.
    Mr. Ahern. Thank you, sir.
    I cannot do any better than General Welch. And my concern 
would be any activity that broke it up as a system. You have a 
right to expect us to develop the Ballistic Missile Defense 
System as a system. The capabilities that we have right now, 
the authorities that we have right now, make that achievable. 
Our job, I think, is to utilize the discipline that we have, 
develop the processes through the MDEB and through the Life 
Cycle Management Plan so that we are responsive to the 
warfighter, address evolving technologies, are affordable, do 
the right thing by the services, but always maintain that focus 
on the need for the integrated system that is evolving toward 
the capability.
    Mr. Turner. You would concur with General Welch----
    Mr. Ahern. I cannot say it any better than he did. I tried 
a couple minutes, but that is exactly what I say. We need to 
keep it as a system. You have a right to expect us to do it the 
right way within what we have.
    Mr. Turner. Thank you, Madam Chairman. I will go to Mr. 
Pendleton when we go to the second round.
    Ms. Tauscher. I am happy to go to the gentleman from 
Washington, Mr. Larsen, for five minutes.
    Mr. Larsen. I personally don't think we can screw it up for 
you, because I think it took a lot of questions from this 
committee to help you all get it--not you all, but for MDA to 
get it right. So I think the record over here is pretty good, 
from the oversight perspective.
    But getting on to MDEB, Mr. Ahern, is MDEB--is that going 
to be an interim step, or is this now permanent? Or will you 
all be experimenting with MDEB and let it evolve, or should it 
evolve in its oversight role? It has been a positive step, I 
think, toward it, but is that an--is it an interim step to 
something much more permanent within the Pentagon?
    Mr. Ahern. Yes, sir.
    I have served under two under secretaries now, and both of 
them have--Mr. Kreig initiated the MDEB and Mr. Young has 
certainly used it. I think it is a good forum; I think it will 
evolve in the level of attention to the individual elements I 
discussed, the work that we have done with the THAAD. I think 
we will be doing progressively more of that oversight--insight 
and then oversight on the individual elements.
    I think it will stay, essentially, with the composition 
that it is, where we have this senior under secretary and 
assistant secretaries from across the board, representation 
from all the stakeholders, plus the uniformed services, the 
JCS, STRATCOM. Though it will probably change, sir, I think 
right now I don't have any specific changes in mind. Our job is 
to run the agenda for that MDEB so that we do get that insight 
and the opportunity for oversight that is required.
    Mr. Larsen. This gets at a question for Mr. Pendleton.
    On page 10 of your report, the last full sentence: ``Until 
DOD establishes a transition and transfer process that adheres 
to key principles for lifecycle management, DOD will be unable 
to ensure that individual elements will be sustained in the 
long term, and DOD's long-term support planning will continue 
to face challenges.'' Based on what Mr. Ahern has testified to 
both in writing and his last comment, does GAO--is this report 
a little late, or do you still see some challenges with the 
transition and transfer process for the management of the 
program?
    Mr. Pendleton. Sir, I think only time is going to tell. The 
Lifecycle Management Process was adopted in September of 2008, 
so it is relatively new. A lot of things are happening right 
now, and so I think the important issue as I look to the future 
is whether the attention is going to be sustained.
    MDEB--there is a lot of personalities involved, lots of 
very senior people, and ballistic missile defense has gotten a 
lot of attention lately. If that were to wane and not as much 
focus on this, you might not see the follow-through to handle 
what I am talking about here.
    Now having said that, there are steps in place. That is 
from a report that we did last year and, we, later in the 
testimony talk about some of the steps that they are taking. 
But only time is going to tell if, in fact, they follow through 
and sustain their efforts.
    Mr. Larsen. Can you talk a little bit more about your 
comment in your oral testimony about a better balance needed 
between balance and flexibility? The MDEB process, again, I 
think is a positive step. The WIP program is very positive.
    But a gnawing thing in the back of my head is that, so long 
as there is a multibillion dollar pool of money for missile 
defense, the services themselves, if they have the 
responsibility for what they wanted, where would these--where 
would missile defense capabilities for those particular 
services fit in their entire world of priorities? I just don't 
know where they would, you know.
    I am missing a Seapower hearing right now about ship 
building, and, you know, if the Navy had to pick between 
building ships and investing just in Aegis, where would they go 
with it? If the Army had to choose between Future Combat 
Systems (FCS) and Patriot, where would they go? So, I can see 
where having MDA and MDEB in a place to help the services fund 
and then field those capabilities is important, but by the same 
token, moving forward in the sustainment part of it, it seems 
that it could easily fall apart as well. Can you talk about 
that balance and the----
    Mr. Pendleton. Yes, absolutely. And I think you are putting 
your finger on one of my concerns, again, looking forward, and 
I mentioned it in my oral statement, and that is how the 
defense-wide accounts are going to be implemented. In the 
Lifecycle Management Process, there was an agreement that the 
services' O&S could be funded out of these central accounts, 
and I think it is fair to say that has helped get them to the 
table to talk about this, because someone else would, 
potentially, be paid someone else's money.
    But over the long term, how that works is going to, I 
think, tell the tale here. I mean, under the current plan, as I 
understand it, MDA will still have responsibility for pulling 
the budget together.
    But one of the key things that is changing is that it is 
not all one color of money. You are going to have different 
pots of money within this central account, so that will help 
improve transparency. But I think it is an open question, as we 
talked about, how long that would last. Is it just a year or 
two, or is it in perpetuity?
    And where this would fall in service priorities may be 
different today than it was yesterday, because I understand 
they are going through a pretty vigorous budget drill over 
there. So that would probably be dependent on what their top 
lines were.
    So that part of the question is hard to answer. And I think 
it is a philosophical question about--and it could be made to 
work either way, whether the services ought to have this money 
or to have to compete within the services, because that creates 
peril, too, potentially.
    Mr. Larsen. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. Mr. Larsen, I think that is where the 
combatant commanders come in, too.
    I am happy to yield five minutes to the gentleman from 
Arizona, Mr. Franks.
    Mr. Franks. Thank you, Madam Chair. And Madam Chair, I 
think the first thing I would like to do is just associate 
myself with some of the perspective and insightful questions 
that Mr. Turner put forward, and take up, if I could, where Mr. 
Larsen left off.
    One of the critical concerns I have is, if we place some of 
these critically important missile defense systems into the 
Lead Services, it sort of puts them in the difficult position 
of making some of the hard choices that Mr. Larsen spoke of, 
and I don't fault them at all, I think we put them in extremely 
hard positions sometimes, in a tight budget, to try to make it 
all work.
    And I am concerned that they may use some of the missile 
defense--these may become bill-payer programs. And how does the 
DOD plan to approach the integration of these large systems 
into the budget cycle, and how are you going to assure that the 
appropriate funding will follow? You know, these funding 
strings are in place now for missile defense; will they follow 
the Lead Service so the new system doesn't become a burden on 
them and they don't have to essentially pay for the system at 
the cost of other priorities?
    Mr. Ahern.
    Mr. Ahern. Yes, sir. I would be glad to answer that 
question, or address that question.
    The Lead Service is designated at the birth when we decide, 
or when the Department decides, we are going to field that 
component, as I said. But in the beginning, and for a number of 
years, they have no fiscal responsibilities in the funding of 
the RDT&E up through, and including, the initial procurement 
and the fielding of it. But they will be operating it, and that 
is the neat transition, I think, that we have been talking 
about this morning.
    And by going with the defense-wide funding in RDT&E, 
military construction (MILCON), procurement, and O&S, 
particularly as we migrate to the O&S, what the vision is, or 
what the thought process is, is establish what the O&S 
requirement for that system is under the defense-wide umbrella, 
so it is not fighting within the service for resources as it is 
being birthed at the beginning of the fielding; develop that 
experience in the service and with MDA, because MDA is 
budgeting--it is part of the MDA budget, the O&S for the first 
couple of years, actually for all--through the fit-up, for 
those like the SBX; and then at the appropriate time, when the 
service and MDA have agreed, through the MOA process, through 
the annex, that the system is ready to be deployed; and that is 
a DOT&E call on effectiveness, survivability, and suitability, 
the service's call on, yes, you have met my criteria for all 
the things that I want, then the TOA will be transferred from 
the money, the funding in O&S would be transferred----
    Mr. Franks. I am sorry.
    Madam Chair, TOA?
    Mr. Ahern. TOA, I am sorry. Yes, sir. TOA, the Total 
Obligation Authority, a budget for that period of time.
    Ms. Tauscher. The money.
    Mr. Ahern. For a year. The money. Thank you, ma'am.
    The money will be transferred to the service. In the 
beginning, of course, the money would be sent over to the 
service on an annual basis. But when that handshake is done and 
the service has accepted, the transfer is complete, then 
whatever money is in the books goes over to the service, and 
from there on out the service will be funding, will be 
budgeting, for the lifecycle support.
    Will there be tension in the service? Will that activity 
have to compete with, as mentioned, Aegis ships in the future--
yes, sir. But I think that it will always have the visibility 
that it deserves.
    And as we go forward, I want to be sure to make the point 
that the RDT&E for the Ballistic Missile Defense System, the 
improvement part of it, the evolving part of it--that is always 
going to be with the Missile Defense Agency.
    Mr. Franks. Sure. I understand. Well, thank you.
    You know, I also understand that the upcoming 2010 budget, 
the President's Budget (PB), has constraints that may lead to 
pretty hard decisions by the Department for funding far-term 
BMD programs, such as, you know, our Satellite Tracking 
Surveillance System (STSS), Airborne Laser (ABL), Kinetic 
Energy Interceptor (KEI), Multiple Kill Vehicle (MKV), and I 
kind of prefer to call these systems sort of national security 
investment programs, because I believe that is exactly what 
they are.
    You know, if we had not been able to turn on our GMD when 
North Korea began to field missiles--we called that a far-term 
program even at the time. And I think we have to start 
investing in these programs now to ensure that we stay ahead of 
these very clearly evolving threats.
    So my question is, once the mature BMD programs like Aegis 
BMD, THAAD, and GMD are fielded, what will the future hold for 
MDA? You know, how will we begin to focus on some of these 
emerging threats and what we are--I think should more likely be 
calling these investment programs, and we need to start now, so 
that we will be prepared to answer the threats in the future.
    And Mr. Ahern, I will go ahead and pick on you again.
    Mr. Ahern. It is a continuing part of the process, sir. 
STRATCOM, as I mentioned earlier, is part of the lifecycle 
management. STRATCOM puts together their priority lists, their 
Integrated Priority List (IPL)--it is passed, too. And that is 
not just done by STRATCOM. It is STRATCOM as well as the other 
combatant commanders, the services, the Integrated Priority 
List.
    It is passed to the MDA, and again, the services, and the 
PPBS kind of a system, and those requirements are addressed, 
then, by the MDA from a standpoint of technology to begin with 
and affordability. There is a dialogue back and forth, and it 
has been noted by GAO, as a matter of fact, that the process 
that we have been working on, of having the IPL come in and MDA 
respond to it, has had an impact on what MDA is working on and 
brings forward in a budgeting sense, and we will continue in 
that process in addressing the warfighters' needs as identified 
in their IPL on an annual basis as we move forward in the 
budget.
    Mr. Franks. Well, thank you.
    Madam Chairman, my light is pretty red.
    Ms. Tauscher. Yes, it is. Thank you.
    I am happy to yield to the gentleman from New Jersey, Mr. 
Andrews, for five minutes.
    Mr. Andrews. Thank you, Madam Chairman.
    And thank the witnesses. I apologize for not hearing your 
oral testimony, but I read what you submitted, and I appreciate 
the work that you have done.
    This morning is an echo of a decision made seven years and 
$56 billion ago to exempt this agency and this procurement 
process from the general rules that apply to just about 
everything else, and I wanted to walk through the consequences 
of those exemptions so the committee may learn how to avoid 
some of the problems that we are talking about here today.
    Mr. Pendleton, the summary of the report that you have 
issued touches on the three perennial problems we have in this 
program: the inadequate input from the combatant command 
structure; the inadequacy of metrics or meaningful criteria to 
measure how well or how poorly the systems are doing, perhaps 
by design, perhaps by accident; and then the, what I think we 
could characterize as inadequate preparation by the services to 
actually use these systems once they are fieldable.
    General Welch, I want to ask, if we could go back to 2002, 
which we can't, and not do the pre-Milestone C exemption that 
Secretary Rumsfeld then created, what would have been different 
with respect to the interaction with this agency and the 
combatant commands in the last seven years? How different would 
the interaction have been with those combatant commanders?
    General Welch. I think to address that you have to take 
your three points individually, because they are quite 
different in the response. As for the inadequate input from the 
combatant commands, there was no combatant commands assigned 
any responsibility for ballistic missile defense.
    Mr. Andrews. Right.
    General Welch. It wasn't assigned before 2002; it wasn't 
assigned in 2002.
    Mr. Andrews. And that would have been different had we not 
had this Milestone C exemption, correct?
    General Welch. No, I don't believe that would have been 
different at all. I think it would have been different if 
someone had simply assigned it to a combatant command, because 
it was eventually assigned to a combatant command with a 
Milestone C exemption. So I really don't believe there is a 
connection there.
    Now, once it was assigned to a combatant command, 
USSTRATCOM, then we began the process by which USSTRATCOM 
collects the other combatant command input. It is an imperfect, 
immature process that is currently evolving, but the key to 
getting the combatant command inputs was to assign the 
responsibility to someone to collect those inputs.
    Mr. Andrews. Why wasn't that done?
    General Welch. I have no idea.
    Mr. Andrews. We don't know either.
    General Welch. I can't imagine why it wasn't done. But, and 
I can say--I can give you a stack of studies about that high 
recommending that it be done.
    Mr. Andrews. Had it been done, where do you think we would 
be today that would be different? I know it is impossible 
that--you can't tell us with certainty, but what is a probable 
prediction? Where would we be today if that assignment had been 
made?
    General Welch. I don't know that we would be in a great 
deal different--a much different place regarding the current 
physical capabilities. I think we would be in a lot better 
place in terms of integration within the theaters.
    Mr. Andrews. I would think so.
    General Welch. But on your second point, the metrics. 
Again, we fall into this issue of lumping all of these systems 
as if they were one, and they are not. They are a system of 
systems.
    Mr. Andrews. Right.
    General Welch. And there are metrics for a number of the 
systems. There are metrics for Aegis SM-3 and for THAAD and----
    Mr. Andrews. But how about GMD?
    General Welch. For GBI, GMD, I remember the description of 
the initial desire for the initial deployed capability was that 
it should be better than nothing. So that was the metric. And 
it is.
    Mr. Andrews. $56 billion for--or part of the $56 billion 
for better than nothing.
    General Welch. Well, that money was spent on a lot of 
things----
    But as for the service preparation, the initial direction, 
you may recall, in the 2002 directive that established MDA, 
directed that MDA do RDT&E and that the services fund both O&S 
and procurement. It turned out that was simply impractical. 
Now, the first evidence of the impracticality was the initial 
deployment of the GBI in Alaska because, remember, those 
missiles were deployed to give you an operational capability, 
but they were also the test assets.
    Mr. Andrews. I appreciate that. If I may, because my time 
is about to expire, I appreciate your answers and the written 
testimony of all three of you.
    I think where this leads us is that, you know, fact-based 
decision-making was in place in the regular process. It was 
imperfect; our panel is trying to perfect it. But when you 
exempt something from that fact-based decision-making, you are 
inviting trouble. And I think that is what we have here, and it 
is why we are sitting here this morning and hearing from these 
gentlemen.
    Thank you.
    Ms. Tauscher. Thank you, Mr. Andrews.
    I am now happy to yield five minutes to the gentleman from 
Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Madam Chairman.
    Some have expressed concern that, once missile defense 
assets and budget authority are transferred to the military 
services, the services may use missile defense resources to 
support other mission areas. What processes or specific 
recommendations do you have to address this concern? And we 
will start with Mr. Ahern first.
    Mr. Ahern. As I indicated earlier, we do have the Lifecycle 
Management Plan process in place, where we develop the budget 
that does include the operations and support. Currently it is 
in the defense-wide funding, but as we go forward and one or 
more of the elements are--in addition to the Patriot Advanced 
Capability-3 (PAC-3)--are transferred to the services, it 
hasn't happened yet, sir, but I expect that the process will 
look at the support of that element and factor it in; again, 
because the Ballistic Missile Defense System is a portfolio, a 
system of systems, where the MDEB, which is made up of senior 
stakeholders from the services and the operating forces, 
including STRATCOM, have to ensure that the level of support 
for the activity for all the elements is valid. I am sure that 
the insight and oversight of the support of the elements, as 
they are fielded and go into O&S, will be robust. It has to be.
    Mr. Lamborn. Do either of you other gentlemen have 
something to add to that?
    Mr. Pendleton. Well, we don't have any specific 
recommendations about how to keep the services from moving 
money in the future, but what we have called for is for the 
systems, as soon as you can, to estimate what it will cost to 
support them, have that independently verified, and then decide 
how it is going to be funded. Then you monitor the execution. 
So, I mean, that is kind of where we focused our work to deal 
with, I think, the concern that you are raising.
    General Welch. And while it has been a long time, I was 
once a service programmer and service chief, and I remember 
funding a lot of things that I didn't think were very 
important, but the Secretary of Defense did think they were 
important, and therefore, they were funded. Now, if that is not 
the case in the Department of Defense anymore, we are in very 
serious trouble, but I believe it is.
    So the priorities are not set by the services. The services 
have their priorities, and there are other priorities set by 
the Secretary of Defense and the President, and those are 
overriding and should be overriding.
    I would also add, I don't think you should have an 
institutionalized priority. If there are priority conflicts 
between the Army funding of a piece of the missile defense 
system and the Army funding of other things that the Army 
thinks are very important, I think that is a very natural 
tension, and that needs to be sorted out above the Army, not 
within the Army, and the process exists to do that.
    Mr. Lamborn. Okay. Thank you. And by the way, 
congratulations on your award last night. I was there to see 
you receive that.
    My second question has to do with a statement that 
President Obama made during the State of the Union--so-called 
State of the Union address. He said that we need to reform our 
defense budget so that we are not paying for Cold War-era 
weapons systems we don't use--Cold War-era weapons systems we 
don't use. And I am trying to figure out what that means. I 
think we will have more guidance--we all will--in a few weeks 
or a couple of months, even, when we get his proposed budget 
for defense, we will know better what he means by that, but I 
would not characterize missile defense as anywhere near a Cold 
War-era system that we don't use.
    It is cutting-edge technology; it has been deployed just in 
the last few years. It still needs to be improved, but we are 
working rapidly on that, and when I think of Cold War-era 
systems, I think of some things from the 1960s or 1970s. But 
would any of you characterize missile defense as a ``Cold War-
era weapons system we don't use''?
    General Welch. Well, in a way I would, and I would say that 
is a very positive statement. The whole purpose of most of the 
Cold War weapons is to not to ever have to use them. And in 
fact, the greatest outcome of all would be if we have an 
effective missile defense system that we never use. I think 
that is the objective.
    Mr. Lamborn. I don't think we could improve on that, so I 
am going to yield the rest of my time.
    Ms. Tauscher. Thank you, Mr. Lamborn.
    We are going to start round two questioning. I want to get 
back to the issue of the combatant commanders. Last year, the 
GAO reported that DOD had failed to establish an effective 
process for identifying, adjudicating, and addressing the 
combatant commanders' priorities for ballistic missile defense 
capabilities.
    What role have the combatant commands played in shaping the 
development of Ballistic Missile Defense Systems? Are we 
meeting the COCOMs' requirements? If not, can we provide 
specific examples, and what needs to be done? And I guess I 
would like to have--since GAO has already spoken up, I would 
like to have General Welch and Mr. Ahern address that.
    General Welch. Well, again, I think to address that you 
have to look at the individual systems, and I won't go through 
them all but, for example, clearly the missile defense 
capabilities that are in the Aegis SM-3 are systems that came 
from combatant command requirements. Clearly, the Patriot came 
from combatant command requirements. So, most of the sensors 
and, certainly all of the warning systems, came from combatant 
command requirements.
    So the issue is this set of new capabilities that were 
introduced with the increased emphasis, and they are--once the 
WIP program was underway, after the responsibility was assigned 
to USSTRATCOM, immediately they came up with the Priority 
Capabilities List, and then how the Priority Capabilities List 
became the Achievable Capabilities List (ACL). I think, 
initially, that was a one-circuit process and the combatant 
commanders weren't happy with it, because they didn't see their 
PCLs adequately reflected in the ACL.
    Now it has become an integrative process, and I think over 
time will much better reflect what the combatant commanders 
believe they need. And it is a fact of life that before 
combatant commanders get very serious about saying they want 
something, they have to have some indication that they could 
actually have it--that is, it actually exists.
    Ms. Tauscher. Mr. Ahern.
    Mr. Ahern. Yes, ma'am. I think we have set up the process. 
And again, as many times I have said this morning, now it is 
our job to make that process work. STRATCOM has issued an 
instruction in June, I think it is, organizing the WIP. We have 
sent out--Secretary England sent out that paper on how we will 
do the planning. We exercised it in 2010; we are going to get 
started shortly for 2011.
    And then I would say, finally, if the COCOMs don't feel 
that they are being heard, my experience in the building is 
that they are not reluctant to call him directly. Though I do 
think--and I am not being facetious--that the PCL, to the ACL, 
to the dialogue where we have the operations committee, we have 
the planning and budget committees, they are going to be 
responsive to the COCOMs' needs as organized by STRATCOM and, 
as General Welch said, affordable and that technology is 
available to answer their requirement. I think we have the 
process to make it work.
    Ms. Tauscher. Mr. Pendleton, in the past, GAO has been 
critical of DOD's approach to management and oversight of the 
Missile Defense Agency, claiming that the flexibility MDA has 
enjoyed has come at the cost of oversight and accountability. 
And, you know, I think that the issue of making sure that we 
don't break the systems up and all of that, you know, is almost 
a red herring. I think the real question is, how do we have the 
environment for very aggressive innovation at the same time 
that we can have accountability and responsibility?
    They are not mutually exclusive. We have done it before; we 
can do it again. And I think that that is what this 
subcommittee's record is. The record is that we understand what 
the challenges of the science and the technology, and 
especially the need to integrate systems of systems, that you 
also have to--because we are the United States Government, have 
responsibility fiduciarily to the American people. You have to 
also have accountability. And so I think that what has happened 
over the time that we have created the--that the MDEB has been 
created, that it has the real potential to improve DOD 
oversight.
    How does the MDEB, Mr. Pendleton, compare to the previous 
missile defense oversight body, such as the Missile Defense 
Support Group? What is your current assessment of the MDEB's 
ability to provide oversight sufficiently? Do you have any 
recommendations--and actually, these recommendations on how you 
make MDEB better can be in writing; you don't have to talk 
about them unless you integrate them.
    Mr. Pendleton. We have talked some about it, and it does 
look promising. You have got senior-level leaders, and as I 
have said before, efforts are going to have to be sustained. 
MDEB has been more active than the previous group. They have, 
as Mr. Ahern indicated, had several meetings.
    And what I saw in reviewing the documents--I requested, and 
they provided, a number of documents that laid out the results 
of all the meetings. There were no minutes kept, and the 
agendas seemed to be fairly fluid, but I did see a number of 
decisions taken. And so you saw a--I saw an evolution even from 
the early days of the MDEB where MDA seemed to be dominating 
the agenda--they were documenting the results--to Mr. Young--
Dave, you can correct me if I have got this wrong--became very 
active----
    Ms. Tauscher. I agree.
    Mr. Pendleton [continuing]. And started taking actions.
    In terms of recommendations about the MDEB itself, other 
than the sort of obvious transparency--you know, I am in the 
oversight business, so, you know, I am always in favor of 
transparency. I think the acid test for me is going to be: Over 
time, does the MDEB ensure that the kind of structural, basic 
management problems that we have laid out in our reports, and 
that we have been talking about here today, get dealt with? 
That it is not the issue of the day, it is not an ad hoc, you 
know, kind of deal, and that attention is paid to making sure 
that all the various stakeholders have their say, that costs 
are managed and acquisitions managed appropriately, and that 
planning is done for where the real costs of some of these 
systems are going to be, and that is in the back end.
    Ms. Tauscher. Right.
    Mr. Ahern, do you have----
    Mr. Ahern. I would add a couple of points. We talked 
earlier about the hybrid, or the Joint Program Offices, that 
are initiated right as the Lead Service has designated, and 
that is an important way to begin to cast that light on the 
O&S.
    The other thing we haven't talked about this morning is the 
Missile Defense Agency has established a vigorous set of 
meetings, on a quarterly basis, with each one of the services, 
called their board of directors, so that the Navy board of 
directors and Air Force board of directors. I go to them----
    Ms. Tauscher. That is relatively new.
    Mr. Ahern. Very new. And it focuses on every program and 
every detail of interest to the service when they are there. So 
we do get that track on where we are, and it is a great thing 
to see, because it is not DOD or OSD looking over their 
shoulder, it is the two getting together and exchanging 
information and status.
    Ms. Tauscher. That is an innovation of General O'Reilly's.
    Mr. Ahern. Yes. Well, I think they were there, but he 
certainly has upped the game. So I recognize what Mr. Pendleton 
is saying, and it is like the rest of the programs across the 
Department of Defense: We have to walk the walk that we talk. 
And that is what my job is. We have the support, the MDEB, the 
stakeholders, we have the rules, and now we have to make them 
work.
    Ms. Tauscher. Thank you.
    Mr. Turner.
    Oh, you are not Mr. Turner.
    Mr. Franks. He is much more handsome than I am.
    Ms. Tauscher. Well, I am not too sure about that.
    Mr. Franks. Most people are.
    Ms. Tauscher. Mr. Franks.
    Mr. Franks. Thank you, Madam Chair.
    General Welch, I want to just, if I could for a moment, to 
touch on something you spoke to Mr. Lamborn about. Obviously, 
you know, I agree with you completely: The best system--the 
best missile defense system is one that impresses upon a 
potential adversary its efficacy to the degree that they simply 
don't challenge it, and you hope that it never has to be used. 
I have said many times, you know, that if the day comes when we 
have to stand before the American people to apologize for 
building an expensive missile system that we never had to use, 
I would be happy to stand in the front of that line and humbly 
apologize. But, God save us from the day when we face a tragedy 
that could have been averted if we had built a system that was 
within our priority to build.
    But isn't it true, I mean--and again, I don't challenge 
your fundamental statement at all, in fact, I agree with you 
completely--but in a sense, strategic weapons might be 
considered relics of the Cold War. We use them every day 
because they, just by existing, are a very critical part of our 
defense. And of course, I am concerned that, you know, if we 
don't have equal insight into the future, that we may face some 
perfect challenges.
    Now, let me just say in significant deference to everyone 
on the committee here, my next statement indicts Republicans as 
much as it does Democrats, but I am concerned now that we 
didn't move quickly enough in the European missile defense 
site, and that we should have made more progress quicker, and 
it could have put downward pressure on Iran's nuclear ambitions 
in a much more effective way. And now we face the situation 
where I am very afraid that this Administration may either 
cancel or delay or put that system where it is so far out that 
it will not have any effect on Iran's program, and that that 
may change the paradigm of our future in a pretty profound way.
    So let me try to get to my question here. In terms of what 
are called far-term systems and sciences that we need to 
emphasize, let me just quote the report the IDA report 
recommends. It says, ``Within the spectrum of MDA RDT&E 
activities, science and technology should receive renewed 
emphasis and increased funding.'' What MDA science and 
technology efforts do you believe require particular emphasis 
and funding, especially as it relates to future threats that we 
may face?
    General Welch. Among the more critical issues, of course, 
are dealing with countermeasures. And while staying at the 
unclassified level, there are clearly understood capabilities 
that we need to deal with those countermeasures, some of which 
we are quite confident in the technologies, and some of which 
we are not, some of which require increased S&T--to provide 
those capabilities. That would be at the top of my list.
    There are actually some almost--I guess I would 
characterize them S&T issues--that have to do with Command and 
Control and battle management. Simply moving the information 
around and integrating the information and moving it at the 
pace it needs to be moved.
    Again, it is fairly unique to the demands of the global 
missile defense issue. So I think those would be the two on the 
top of my list, but they are pretty big issues.
    Mr. Franks. Well, maybe I would just follow up, General, 
because I think you are absolutely right. You know, there was a 
time when those were strong missile defense advocates had to 
try to break through the argument that we could never hit a 
bullet with a bullet, you know, the technology itself was 
impossible to achieve.
    And now we kind of face that same paradigm when we are 
talking about countermeasures. You know, there is just no way 
we will ever be able to come up with a system that will deal 
with the potential adversary's advantage, because it is a lot 
easier to create countermeasures than it would be to create a 
system to deal with them. But I still think that is the 
equation in front of us, and of course I, again, at the non-
classified level, believe that we are moving in some very 
positive directions in that area and believe that we will 
prevail there.
    One example would be, you know, our boost-phase programs. I 
believe Airborne Laser is another thing that I--again, this 
might be a little bit more controversial, but I am very 
concerned about Airborne Laser. I am concerned that we may see 
that system cancelled under this Administration, and I think 
that is an extremely dangerous thought because the laser 
technology, I believe, is to missile defense what the computer 
chip was to the computer industry. It travels at Mach 870,000. 
I mean, it gives us the ability to, essentially, do away with 
most of the countermeasure arguments because they are never 
deployed in the first place if Airborne Laser is taken.
    That will be my last question, Madam Chair.
    Do you think, General, that systems like Airborne Laser are 
important to the debate related to the countermeasure challenge 
that we face? I am putting you on the spot, and I am sorry.
    General Welch. That is okay. That is why I am happy to 
answer. I think there are, because it is very much related to 
the way you started this conversation. There are huge 
technological issues associated with effective laser systems. 
And while the Airborne Laser, in my view, is something that we 
need to have, we need to be flying, and we need to be learning 
about it, but there are also advanced technologies that would 
make a system order of magnitude more effective, and we need to 
be making investments in those technologies.
    Mr. Franks. Well, I would agree with that completely.
    Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Turner--you are not Mr. 
Turner.
    I am happy to yield to the gentleman from Washington, Mr. 
Larsen.
    Mr. Larsen. Thank you, Madam Chair.
    Mr. Pendleton, on page 12 of your testimony you discuss one 
of three concerns and challenges you have. I won't read the 
whole paragraph there; it is fairly lengthy. But again, the 
last sentence--you guys seem to put all your main statements in 
the last sentence, not the first. I write differently than you 
all.
    ``As a result of these limitations, DOD and the services 
would face unknown financial obligations for supporting 
ballistic missile defense fielding plans, and that most of 
these costs would not be reflected in DOD's future years' 
spending plan for fiscal years 2010 through 2015.'' And the 
basis of that conclusion is some of the research you have done, 
but also it certainly relates to the Lifecycle Management 
Process that the DOD has established.
    I am going to do a little switch here. The question is 
actually for Mr. Ahern on there. But I am curious on how the 
Lifecycle Management Process looks beyond, say--will look 
beyond the next year's budget and into years three, four, five, 
six, seven, and so on? It seems to me that the basis of the 
criticism and the challenge that GAO is reporting here is that 
you may not have a good enough handle looking farther out in 
this process. Can you talk a little bit about how this process 
looks a little further out than this?
    Mr. Ahern. Yes, sir. As it looks to me, there are going to 
be fixed and variable costs in the O&S regime, in the same way 
we do with any standard system. And I think the way we are 
looking at it right now is, as we can--for some of the fixed 
sites, we will be able to get the fixed cost fairly quickly, I 
think, and then the variable costs will be the operations, the 
sustainment, the manpower, that sort of thing that I mentioned 
earlier we need to gain some experience on before we are able 
to lock it down.
    So I think the first budget inflow, when asked for the 
elements, it will be in the Program Objective Memorandum (POM) 
10 and in O&S. It is going to be refined, improved upon when we 
get to 2012, and refined again when we get to 2014. And I would 
say, analogous to what we do with the other weapons systems as 
we move forward and gain experience moving from initial 
deployment to full-rate production and forward on.
    I hope I have answered your question. That is nontrivial; 
it is going to be something that we will start with based on 
the lifecycle-estimating expertise that we have and then, as we 
gain that experience, inform the budget in the subsequent POM 
cycles, which I think is one of the reasons why starting to do 
this with defense-wide is attractive, so that we do nail it 
down before the services are responsible for that funding.
    Mr. Larsen. To put a little different light, or a little 
different spin, just for myself, this would be like 
interpreting TOA into money for me.
    Mr. Ahern. I am sorry. I am sorry I did that to you 
earlier.
    Mr. Larsen. I am going to interpret this a little bit to 
say that the reality is, you are doing this as a pilot in 2010; 
you are testing it in 2010. 2011 becomes more firm, and 2012 
more firm, and 2014 more firm; and you are going to learn along 
the way how to better incorporate these longer-term costs into 
the program.
    Mr. Ahern. Yes, sir. For every one of the systems. Some of 
them aren't yet ready to go out into field, so the O&S cost for 
the Ballistic Missile Defense System will be an event in every 
budget, as was mentioned here in the room earlier, really, of--
I think General Welch mentioned it again--of the priorities in 
the system. And every year we will be able to establish a 
baseline for the system, there is no doubt about that, as we 
have done with the other weapons.
    But then it will, every year, based on utilization, one 
thing or another, there will be whether it is 2010, 2012, 2014, 
as we add more systems, move more Aegis, and have that 
capability go up. So every year, just as with every other 
weapons system, we will be going through the O&S.
    Mr. Larsen. And then, Mr. Pendleton, in the short time I 
have, then is that on your work plan, then, over the next 
several years--GAO?
    Mr. Pendleton. Yes. We have an annual mandate to look at 
the progress of the program. We have done the work for this 
subcommittee under individual requests, so certainly the 
subcommittee can continue to have us look at that operations 
and support, how that is managed in the budget, and we would be 
happy to do that. I certainly think that would be worthwhile.
    Mr. Larsen. Yes, great. Thank you.
    Thank you, Madam Chair.
    Ms. Tauscher. Mr. Franks, do you have any further 
questions?
    Mr. Franks. No, ma'am. Thank you.
    Ms. Tauscher. Well, gentlemen, thank you very much for 
appearing before the committee today. I just want to, for the 
record, set some parameters for what I think it is important 
for us to be talking about. And I know that there is 
sensitivity among significant promoters of missile defense that 
President Obama's budget is going to trim some of the 
investments that are being made and, considering the fact that 
we have raging deficits and debt and other things, I think that 
the President is going to make the right decisions on what 
these investments will be, and I think that missile defense 
will not be singled out to take any cuts. I think that there 
will be cuts across the board, and that is a decision that 
Congress will be part of, and that the American people will 
weigh in on as we go through the budgetary process.
    But I think the question really isn't whether the long-
range system that was proposed in Europe, whether that is going 
to be funded or not. The Congress has made very clear what 
their parameters for that is.
    The Congress, in the last defense bill, said that there 
will be no further deployment of the long-range system in 
Europe until three things happen. The first is that we had a 
study to make sure that the system proposed was the appropriate 
system; the second was that the Secretary certify that the 
system was tested sufficiently; and that the system, having 
everybody agreeing that it hasn't been tested sufficiently, be 
tested sufficiently. So I think that that is the status of 
things.
    But I think, most importantly, regarding Europe, the 
question really shouldn't be whether we are going to deploy the 
long-range system in Europe any time soon. The question is, why 
haven't we deployed the short-range system to protect our 
allies, our assets, and our forward deployed troops, against 
existing threats?
    The largest holder of short- and medium-range missiles in 
that theater, in the Middle East, are the Iranians. Right now, 
we currently have no missile defense system deployed to protect 
our forward deployed troops, our warfighters, our assets. And 
that is, I think, the real question.
    So I think it is important for us to look at the long-range 
threat from Iranian missile; they certainly have not abated. As 
they have watched us build a long-range system, they 
certainly--extensive system--they certainly have not abated, in 
my opinion, in their ambitions either for a ballistic missile 
capability or for, perhaps, a nuclear weapon, which we 
certainly cannot tolerate. But the real question is, why 
haven't we deployed short- and medium-range systems to defeat 
their existing threat?
    And so, we thank you very much for appearing before us 
today. We depend on your work and your patriotism. The 
subcommittee thanks you, and the hearing is adjourned.
    [Whereupon, at 11:12 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 26, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 51662.001
    
    [GRAPHIC] [TIFF OMITTED] 51662.002
    
    [GRAPHIC] [TIFF OMITTED] 51662.003
    
    [GRAPHIC] [TIFF OMITTED] 51662.004
    
    [GRAPHIC] [TIFF OMITTED] 51662.005
    
    [GRAPHIC] [TIFF OMITTED] 51662.006
    
    [GRAPHIC] [TIFF OMITTED] 51662.007
    
    [GRAPHIC] [TIFF OMITTED] 51662.008
    
    [GRAPHIC] [TIFF OMITTED] 51662.009
    
    [GRAPHIC] [TIFF OMITTED] 51662.010
    
    [GRAPHIC] [TIFF OMITTED] 51662.011
    
    [GRAPHIC] [TIFF OMITTED] 51662.012
    
    [GRAPHIC] [TIFF OMITTED] 51662.013
    
    [GRAPHIC] [TIFF OMITTED] 51662.014
    
    [GRAPHIC] [TIFF OMITTED] 51662.015
    
    [GRAPHIC] [TIFF OMITTED] 51662.016
    
    [GRAPHIC] [TIFF OMITTED] 51662.017
    
    [GRAPHIC] [TIFF OMITTED] 51662.018
    
    [GRAPHIC] [TIFF OMITTED] 51662.019
    
    [GRAPHIC] [TIFF OMITTED] 51662.020
    
    [GRAPHIC] [TIFF OMITTED] 51662.021
    
    [GRAPHIC] [TIFF OMITTED] 51662.022
    
    [GRAPHIC] [TIFF OMITTED] 51662.023
    
    [GRAPHIC] [TIFF OMITTED] 51662.024
    
    [GRAPHIC] [TIFF OMITTED] 51662.025
    
    [GRAPHIC] [TIFF OMITTED] 51662.026
    
    [GRAPHIC] [TIFF OMITTED] 51662.027
    
    [GRAPHIC] [TIFF OMITTED] 51662.028
    
    [GRAPHIC] [TIFF OMITTED] 51662.029
    
    [GRAPHIC] [TIFF OMITTED] 51662.030
    
    [GRAPHIC] [TIFF OMITTED] 51662.031
    
    [GRAPHIC] [TIFF OMITTED] 51662.032
    
    [GRAPHIC] [TIFF OMITTED] 51662.033
    
    [GRAPHIC] [TIFF OMITTED] 51662.034
    
    [GRAPHIC] [TIFF OMITTED] 51662.035
    
    [GRAPHIC] [TIFF OMITTED] 51662.036
    
    [GRAPHIC] [TIFF OMITTED] 51662.037
    
    [GRAPHIC] [TIFF OMITTED] 51662.038
    
    [GRAPHIC] [TIFF OMITTED] 51662.039
    
    [GRAPHIC] [TIFF OMITTED] 51662.040
    
    [GRAPHIC] [TIFF OMITTED] 51662.041
    
    [GRAPHIC] [TIFF OMITTED] 51662.042
    
    [GRAPHIC] [TIFF OMITTED] 51662.043
    
    [GRAPHIC] [TIFF OMITTED] 51662.044
    
    [GRAPHIC] [TIFF OMITTED] 51662.045
    
    [GRAPHIC] [TIFF OMITTED] 51662.046
    
    [GRAPHIC] [TIFF OMITTED] 51662.047
    
                                  <all>

</pre></body></html>
